HHS/OIG, Audit -"Review of Epogen Internal Control Procedures at Massachusetts Renex Dialysis Clinics for Calendar Year 1999,"(A-01-02-00502)
Department
of Health and Human Services
"Review of Epogen Internal Control Procedures at Massachusetts Renex Dialysis Clinics for Calendar Year 1999," (A-01-02-00502)
September 25, 2002
Complete
Text of Report is available in PDF format (2.93 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if Massachusetts Renex providers have established adequate internal controls
and procedures to ensure that claims for EPOGEN (EPO) are supported and billed in accordance with Medicare rules and regulations.  Based
on a review of 296 claims valued at $327,540, we identified portions of 85 claims totaling $6,016 not eligible for Medicare
reimbursement.  We recommended that Renex (1) continue to strengthen their internal controls and procedures to ensure
that the claims submitted for EPO are supported and billed in accordance with Medicare rules and regulations, and (2) refund
the Medicare program $6,016 for unallowable Medicare costs to the fiscal intermediary BC/BS of Georgia.